Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      YOUTH USE OF CIGARS

     Federal, State Regulation and Enforcement




                         JUNE GIBBS BROWN
                          Inspector General

                            FEBRUARY 1999
                            OEI–06-98-00020
                     OFFICE OF INSPECTOR GENERAL
The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                             Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Dallas regional office prepared this report under the direction of Chester B. Slaughter,
Regional Inspector General. Principal OEI staff included:

REGION VI                                                    HEADQUARTERS

Michelle Adams Ph.D., Project Leader                 Elise Stein MPH, Program Specialist

Jennifer Ring, Intern

Nancy Watts

Scott Whitaker, Intern

Lisa White





   To obtain copies of this report, please call the Dallas Regional Office at: 1-800-848-8960.
         Reports are also available on the World Wide Web at our home page address:
                                http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

To describe the regulatory environment of cigars at the national and State levels, as well as
Federal and State tobacco control and enforcement activities regarding minors’ access to and use
of cigars.

BACKGROUND

New evidence of widespread minors’ use, coupled with new scientific evidence about the health
risks of cigar smoking (such as cancers of the lungs, larynx, oral cavity, and esophagus), is
causing growing concern about the extent of minors’ use of cigars and also about the adequacy of
attempts to regulate access to them. The President and Secretary of Health and Human Services
have initiated efforts to reduce minors’ tobacco use. This effort has involved a number of
agencies, such as the Centers for Disease Control and Prevention, Food and Drug Administration,
National Institutes of Health, and the Substance Abuse and Mental Health Services
Administration. This study supports their efforts. It involved reviews of existing Federal
regulatory authority and agency oversight responsibilities for cigars, along with systematic
collection of information from all 50 States and the District of Columbia.

FINDINGS

Cigars have not faced the same degree of Federal regulation and oversight as other tobacco
products, such as cigarettes and spit tobacco.

Cigars do not include a U.S. Surgeon General’s warning label, no Federal laws require cigar
manufacturers to report their ingredients and, aside from little cigars, they face no advertising
restrictions on television and radio. Additionally, cigars are not included in the Food and Drug
Administration’s (FDA) newest tobacco regulations. Through these regulations, the FDA
asserted jurisdiction to regulate cigarettes and spit tobacco as nicotine-delivery devices under the
Federal Food, Drug and Cosmetic Act. The only Federal enforcement oversight for cigars is
through the Synar Amendment, which is administered by the Substance Abuse and Mental Health
Services Administration and was added to the Public Health Service Act to strengthen efforts to
reduce the sale of all tobacco products to youth. However, cigars are only implicitly addressed.
Under Synar, the only explicit Federal requirement for States to comply with is to conduct yearly,
random, unannounced inspections of vendors to measure tobacco sales to minors. In working
with the States to develop an appropriate methodology for implementing the Synar Amendment,
SAMHSA weighed variables such as the relative volume of cigarette versus cigar usage by minors
and resource constraints faced by States. Based on State resource constraints and higher use of
cigarettes than cigars and other tobacco products by minors, SAMHSA determined that the most
effective way to reduce the sale of tobacco products to youth was to prioritize State inspection
activity on cigarettes only.



                                         )))))))))))
                                              i
State enforcement of laws and regulations prohibiting the sale to, and use of cigars by, minors
is currently severely limited.

All States and the District of Columbia (51) have tobacco laws broad enough to encompass
cigars, with most explicitly stating that cigar sales to minors and their purchase, possession, or use
of cigars are prohibited. However, States do not evenly enforce these laws and regulations
governing minors’ access to tobacco. Cigars, in particular, currently receive a very low
enforcement priority. While 44 States reported a variety of options for controlling minors’ access
to cigars, such as follow-up on complaints (29), compliance checks using minors (27), and
observation of minors’ attempted purchases (16), most of these methods are rarely or seldom
applied. Additionally, many States lack a general awareness of the extent of cigar sales to minors,
the ease with which minors can purchase cigars, and the degree to which minors’ use of cigars is a
problem in their State.

Lack of resources and a low enforcement priority are seen as the most significant barriers to
effective control of cigar use by minors.

The biggest barrier, listed by 31 State contacts, dealt with insufficient resources for enforcement
and/or a general unwillingness by the community and local law enforcement authorities to
prioritize cigar enforcement. Secondary to issues of priority and resource constraints, 13 State
contacts listed a lack of awareness of the dangers of cigar usage and the extent of minors’ usage
in their State as a major barrier. Twelve State contacts reported problems with retailers, such as
failing to enforce the laws, placement of cigars in accessible locations, and the lack of licensing.
Five State contacts listed the barrier of industry marketing practices linking cigars with glamour
and success, as well as product placement in youth-oriented movies and TV shows. Four State
contacts mentioned the barrier created by the omission of cigars from the FDA regulations.

RECOMMENDATIONS

We found the shield of protection in place for other tobacco products is largely missing for cigars.
The information collected through our background research and this study highlights the need for
a concerted DHHS strategy to address the emerging health risks of cigar usage.

We recommend that the Department, under the leadership of the Assistant Secretary for Health
develop an action plan to address the public health risks posed by cigars, particulary access by
youth. As a first step, we recommend an initiative to inform the public through a public
awareness and educational effort appropriate for cigars. This effort could also include pursuing a
collaborative effort with the Federal Trade Commission and Congress to initiate a Surgeon
General’s Warning Label for cigars. As a second step, the Department should address the need
for additional research on cigars including patterns and prevalence of use, youth access and ease
of purchase, health effects, addictive potential, use of cigars to smoke marijuana, and an
assessment of the adequacy of the Department’s data collection and survey capacity for
monitoring cigar use trends.




                                          )))))))))))
                                               ii
Data gleaned from this research may provide information that will enable the Department to
address more specific issues such as how best to expand enforcement efforts under the Synar
Amendment to address cigars, including identifying resources needed to accomplish this, and
whether FDA should initiate the investigatory process for asserting jurisdiction over cigars
comparable to that exercised by the FDA over cigarettes and spit tobacco and/or have Congress
expressly affirm FDA’s authority to regulate cigars.




                                       )))))))))))
                                            iii
                                        TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


     Federal Laws . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


     State Laws, Enforcement, and Training . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


     Barriers to Cigar Enforcement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


APPENDIX


     Statewide Tobacco Laws . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1

                            INTRODUCTION

PURPOSE

To describe the regulatory environment of cigars at the national and State levels, as well as
Federal and State tobacco control and enforcement activities regarding minors’ access to and use
of cigars.

BACKGROUND

This report describes existing Federal and State laws, regulations, and enforcement mechanisms in
place to address minors’ use of cigars. Currently, ample information is available regarding
minors’ access to cigarettes and the corresponding mechanisms used to control cigarette usage.
However, far less is known about the regulatory environment and enforcement mechanisms for
cigars and spit tobacco (snuff and chewing tobacco). This report focuses on information about
cigars.

The impetus for this OIG study is multi-faceted. First, this study contributes to efforts by the
President and Secretary of Health and Human Services (HHS) to reduce minors’ tobacco use.
Second, it addresses information requested by the Centers for Disease Control and Prevention,
Office on Smoking and Health, by exploring the issues surrounding cigar use by minors and
States’ efforts in reacting to this emerging problem. Third, it contributes to recent efforts made
by the National Institutes of Health through the National Cancer Institute and the Federal Trade
Commission to better understand the scientific and regulatory environment for cigars, as opposed
to cigarettes.

Evidence of Cigar Use Among Minors

In May 1997, the Centers for Disease Control (CDC) first published data showing 26.7 percent of
U.S. male and female teenagers 14 to 19 years of age and 24.4 percent of those 14 to 16 years of
age had smoked at least one cigar in the last year.1 These numbers were even more striking for
males, with 37 percent in this national random survey having smoked a cigar in the last year.
Similar evidence was found in two separate State surveys of youth. A Massachusetts study found
that 28.1 percent of 9th to 12th grade students had smoked a cigar in the past year and 14.5 percent
had smoked at least one cigar in the past month.2 Cigar use among males in grades 8 through 12
was also significantly higher than spit tobacco use.3 A recent California tobacco survey found that
approximately 34 percent of males and 17 percent of females ages 16 to 17 and 8 percent of males
ages 12 to 13 had smoked at least one cigar in 1996.4

More alarming is the percentage of high school students nationally that have used cigars in the
past month. Twenty-two percent of both male and female high school students combined were
current cigar users (used in the previous 30 days), according to CDC’s 1997 Youth Risk
Behavior Survey.5 Specifically, 31.2 percent of male students had used a cigar in the past month
and 10.8 percent of female students.6 The percentage of current cigar users far surpasses the
percentage of spit tobacco users for high school males and females (22 and 9.3 percent), although

                                         )))))))))))
                                              1
the attention cigars have received nationally and at the State level has been far less. As a
counterpoint to these national and regional data, are the results of SAMHSA’s 1997 National
Household Survey on Drug Abuse which shows current past month cigar use by 12-17 year olds
to be only five percent.7

There is also evidence to suggest that minors may be obtaining cigars with the same or greater
ease than cigarettes. A study of ninth grade students in two New York counties found cigars are
more easily obtained by minors than cigarettes.8 This combination of teen use of cigars and
relative ease of purchase by minors has caught public health officials off guard.

Health Effects of Smoking Cigars

Until recently, very little was known about the health risks of cigar smoking by the scientific and
public health community. In fact, less than one percent (37 of 3,994) of cigar-related stories in 26
major U.S. newspapers from 1994 to early May 1997 dealt with the health risks of cigar
smoking.9 Although an earlier Surgeon General’s report warned of some of the risks of cigar
smoking, cigars were more commonly assumed to be a much safer product than cigarettes
because cigar smoking does not require inhalation to obtain the effects of nicotine.10

The National Cancer Institute’s (NCI) recently released monograph entitled, Cigars: Health
Effects and Trends, is the first comprehensive work scientifically documenting the health risks of
smoking cigars.11 Some European studies have observed an increased risk of stroke among cigar
smokers.12 This monograph presents evidence showing causal relationships between regular cigar
use and cancers of the lungs, larynx, oral cavity, and esophagus.13 People who smoke cigars
almost triple their chances of developing lung cancer and are up to 10 times more likely to die
from mouth or throat cancer than nonsmokers.14

Another study by the Kaiser Permanente Medical Care Program followed 225 men who smoked
an average of two cigars a day for 10 years. These men were found to have a 25 percent higher
risk of death during a 13 year follow-up, compared to 14,200 men who never smoked any
tobacco products.15 This study also showed regular cigar smokers had an increased risk of some
forms of heart disease. This new information, coupled with recent studies showing rising cigar
use among minors, has heightened concerns about the extent of minors’ use of cigars and also
about the adequacy of attempts to regulate minors’ access to cigars.

Images of the New Cigar Smokers

The stereotypical cigar user, formerly mostly older adult men, now includes much younger users.
Strategic product placement of cigars, the practice of paying Hollywood brokers to place cigars in
the mouths of popular actors and young-looking adults in movies or television sitcoms, has
enforced the new image of today’s younger cigar users and increased the social acceptability of
cigar smoking.16 Responding to attacks from anti-tobacco organizations and some lawmakers, the
Cigar Association of America recently announced it will no longer support the practice of product
placement.17 The Association plans to “admonish” its members to halt the practice.18



                                         )))))))))))
                                              2
Additionally, cigars smoked today are available in a greater variety of flavors, sizes, and price
ranges that appeal to a wider audience. While there have been sharp increases in sales of premium
cigars, manufacturers of lower-end cigars have also realized substantial profits.19,20 These low-end
cigars are available in grocery or convenience stores and can be purchased for as little as 50 cents
or less. Clearly, these low-end products are not the same as those highlighted in new cigar
magazines, such as Cigar Aficionado. However, the messages of glamour and success that are
associated with premium cigar smoking appear to be influencing users of all types of cigar
products and all ages.21

Types of Cigars

Although cigars differ vastly in size and price, for taxation purposes the government uses two
classification levels: small and large cigars.22 Small cigars, referred to as “little” cigars, are
similar to cigarettes in size (70-120 mm in length) and packaging (20 per pack).23 For tax
purposes, small cigars are required to weigh less than 3 pounds per 1,000 cigars. The tax
category for large cigars includes all cigars that weigh more than 3 pounds per 1,000 cigars.
However, great variation exists as to the size of the cigars within the tax classification of large
cigars. These cigars come in a variety of sizes ranging from 12.7 to 21.4 cm in length and 12 to
23 mm in diameter. To help differentiate this large variation, the cigar industry has developed its
own definitions of cigars in the large cigar tax classification. One of the primary distinctions the
industry makes is between manufactured cigars and hand-rolled, also known as premium, cigars.

Manufactured Cigars

Price also helps differentiate manufactured cigars from premium cigars. Manufactured cigars are
often sold in packs of five and cost less than $2.00. The low cost of producing these cigars is
attributed to the fact that they are machine-made and use reconstituted cigar tobacco for the
binder and/or wrapper. However, there are many variations of manufactured cigars. A few of the
more common types of manufactured cigars are described below.

<   Cigarillos and Pipe Tobacco Cigars

Cigarillos and pipe tobacco cigars, two popular types of manufactured cigars, often have a plastic
or wood tip and a milder taste. Many cigars in this grouping also come in flavors, such as cherry.
In many States, users can purchase these cigars in packs of five for less than $2.00 or as singles
for 50 cents at local convenience or grocery stores. It is currently unclear what type of consumers
are using this product. However, evidence from the companion OIG study, “Youth Use of
Cigars: Patterns of Use and Perceptions of Risk”(OEI-06-98-00030), indicates that minors often
use cigarillos and pipe tobacco cigars because they are easy to purchase, are milder in taste, and
cost less.

<   Regular Sized Cigars

A third type of manufactured cigars is the regular sized cigars. For taxation purposes, these
cigars are taxed as large cigars, but they are actually smaller than many of the premium cigars.


                                          )))))))))))
                                               3
These cigars are also distinguished by their price and mass production, usually selling for less than
$2.00 for a pack of five cigars. Many cigar manufacturers also sell a type of cigar with a blunt cut
tip. Although these cigars are sold by the manufacturer with tobacco in them, evidence from the
companion OIG study, “Youth Use of Cigars: Patterns of Use and Perceptions of Risk” (OEI-06-
98-00030), shows teens often replace the tobacco with marijuana, a popular practice called
“blunting.” Teens report using cigars to smoke marijuana because cigars burn more slowly, they
obtain a better high, and can easily buy them at grocery stores and convenience stores. It is
currently unclear how many of the teens smoking cigars are using the cheaper cigars for smoking
marijuana and how many are smoking them as they are intended to be smoked. What we do
know is that several large manufacturers recently added new blunt cigars to their product lines.24
We also know that the use of cigars for smoking marijuana is openly promoted by the songs of
several hip-hop music artists.25

Premium Cigars

Comparatively, premium cigars are usually hand-rolled, cost over $1.00 per cigar, and are often
imported. Premium cigars include more extensively fermented tobacco and are more expensive,
usually ranging in price from $1.00 - $20.00 a cigar. Although premium cigars are currently sold
in some convenience stores, they are more commonly found in specialty tobacco shops. Premium
cigars are marketed in magazines such as Cigar Aficionado and Smoke. Early evidence from the
companion OIG study, “Youth Use of Cigars: Patterns of Use and Perceptions of Risk” (OEI-06-
98-00030), shows that, due to their higher price, minors are not commonly smoking premium
cigars.

Secretary’s Initiative to Reduce Tobacco Use Among Teens and Preteens

In 1996, the President set a goal of reducing tobacco use among young people by 50 percent in
seven years. To coordinate the Department’s efforts to achieve this Presidential goal, the
Secretary established the Interagency Initiative to Reduce Tobacco Use Among Teens and
Preteens, with the Centers for Disease Control and Prevention (CDC) as the lead agency.
Participating agencies include the Administration for Children and Families (ACF), Food and
Drug Administration (FDA), Indian Health Service (IHS), Health Care Financing Administration
(HCFA), Health Resources and Services Administration (HRSA), National Institutes of Health
(NIH), Substance Abuse and Mental Health Services Administration (SAMHSA), components of
the Office of the Secretary of HHS, and non-HHS agencies such as the Department of Education
and Department of Justice. Through collaborative efforts, the Initiative attempts to take
advantage of established linkages among local, State and Federal agencies, community
organizations, businesses, and the entertainment industry. It also seeks to create a national
infrastructure for tobacco control activities and to increase the outreach capabilities of such
efforts.

The Initiative has two intermediate objectives. The first is to reduce the supply of tobacco by
limiting youth access to tobacco products. Implementation of comprehensive prevention and
control activities, including enforcement of the FDA and Synar regulations is critical in achieving
this objective.26 The second intermediate objective is to reduce demand for tobacco products by


                                          )))))))))))
                                               4
decreasing tobacco’s appeal to youth and increasing the perceived harmfulness of tobacco use
among young people. To focus attention on demand reduction, this Initiative covers the
following five themes:

1.   Promote positive alternatives to tobacco use through sports and youth centered activities;
2.   Empower young people to address tobacco use among their peers;
3.   Deglamorize tobacco use through a coordinated entertainment industry strategy;
4.   Implement paid counter-advertising campaign to change social norms about tobacco use; and
5.   Involve parents and families in addressing tobacco use among young people.

Although aggressive efforts are underway to successfully address these five themes, the Initiative
is currently focused on cigarettes almost exclusively, with little attention on cigar usage among
minors.

Healthy People 2000 Tobacco Progress Review

However, the Department’s November 1997 Healthy People 2000 Tobacco Progress Review
resulted in a follow-up item specifically addressing cigars. In response to the compelling data
about the health risks of cigar smoking presented in the NCI monograph, the progress review
challenges the Department with developing cigar-use prevention programs. Currently, prevention
programs are underway in a few States, including California, New Hampshire, and Massachusetts.
These States have taken steps to implement cigar use prevention messages through media
campaigns or by distributing pamphlets.

Healthy People 2010 Objectives (Draft)

The current draft of the DHHS Healthy People 2010 Objectives includes a goal to reduce the
proportion of young people in grades 9-12 who have used tobacco products. Reduction of cigar
use among teens is included in these objectives. Specifically, the Department’s proposed goal is
to reduce past month cigar use from a high of 22 percent in 1997 among students in grades 9-12
to 9 percent by the year 2010. In order to reach the tobacco goals outlined in Healthy People
2010, the Department will focus on 1) preventing initiation of tobacco use; 2) promoting
cessation of tobacco use; 3) reducing exposure to secondhand smoke; and 4) changing social
norms and environments that support tobacco use.

METHODOLOGY

This study involved reviews of existing Federal regulatory authority and agency oversight
responsibilities for cigars, along with systematic collection of information from all 50 States and
the District of Columbia. While numerous published documents provided a historical perspective,
many documents were obtained online via the Internet, allowing us to include the most recent
information available. Additionally, we met with agency experts from the Centers for Disease
Control and Prevention (CDC), Food and Drug Administration (FDA), National Institutes of
Health (NIH), Substance Abuse and Mental Health Services Administration (SAMHSA), and the
Federal Trade Commission (FTC). Descriptions of the implementation of Federal laws by


                                         )))))))))))
                                              5
agencies involved a synthesis of existing documentation and meetings with agency experts.

In addition to analyzing Federal laws and regulations, we collected information from contacts in
each State that were deemed to be the most knowledgeable about Synar implementation. To
determine the various State players involved in tobacco enforcement, we initially contacted the
Single State Authority (SSA) from each State. The SSA’s represent the agency receiving the
Substance Abuse and Prevention Block Grant. In most cases, we were referred to one or more
individuals who helped us obtain information about State tobacco laws and regulations, as well as
ongoing enforcement activities. Our sources came from a variety of departments, but they more
commonly came from the State Department of Public Health, Division of Drug and Alcohol
Abuse, or Department of Health and Human Services. In several cases, data was collected from a
variety of agencies and returned to us by an assigned contact person. All States and the District
of Columbia responded to our request for information.

Although in some cases States were asked to submit documentation, the information presented in
this report is primarily self-reported data. Some clarifying follow-up telephone calls were made to
selected States. The information submitted to us is what the State contacts believe to be true in
their State. To increase the readability of this report, we have substituted the word “States” when
we mean “State contacts” and the District of Columbia.

This inspection was conducted in accordance with the Quality Standards for Inspections issued
by the President's Council on Integrity and Efficiency.




                                         )))))))))))
                                              6
                                    FINDINGS

OVERVIEW

Cigars currently receive little oversight by Federal laws and regulations. Aside from advertising
restrictions on little cigars, the only Federal oversight on cigars is through the Synar Amendment
which requires States to have and enforce laws making it illegal to sell all tobacco products to
minors, which would include the sale of cigars. As States have moved toward meeting the
requirements of the Synar regulation, they have been encouraged to focus their compliance
measurement on cigarettes.

The lack of emphasis on cigars is not surprising given the meager attention cigars have received
from both the research community and the Federal government in prior years. Until recently,
research regarding the potential health effects of using cigars and the prevalence of use among
minors was extremely limited. The fact that cigars do not include a Surgeon General’s warning
label and are not part of the Food and Drug Administration’s tobacco control regulations appears
to be conveying an unintended message that cigars are not a public health concern.

We found States have generally adopted a similar attitude toward cigars, weakly enforcing their
tobacco laws as applied to cigars. A large number of States currently do not have enough
evidence to determine either the extent of cigar sales to minors or the ease with which they can
purchase them. Nevertheless, those few States that are beginning to focus on this emerging issue
have detected that minors are able to purchase cigars with the same ease as cigarettes.

FEDERAL LAWS

Cigars Have Not Faced The Same Degree Of Federal Regulation As Other Tobacco
Products, Such As Cigarettes And Spit Tobacco.

Lack of Warning Labels on Cigars

Cigars are currently not required to include any Federal warning labels. This is not true for
cigarettes and spit tobacco. As early as 1965, cigarettes were required to carry warning labels,
but without mentioning the U.S. Surgeon General. In 1970, the language of cigarette warnings
was strengthened, and revised warnings by the U.S. Surgeon General were mandated by
Congress.27 Spit tobacco products were first required to include rotational health warnings in
1986.

All cigar packages and boxes sold in California include a warning label. This is not true for
individual cigars.28,29 The following warning label is required by California’s 1986 Safe Drinking
Water and Toxic Substances Enforcement Act, “Warning: This product contains/produces
chemicals known to the state of California to cause cancer and birth defects or other reproductive
harm.” The warning is generic and appears on a variety of other non-tobacco products. Most
manufacturers voluntarily include this warning on cigars sold in other States, but not all. Even
where the warning is included, it is not always conspicuous.30

                                         )))))))))))
                                              7
Lack of Disclosure Requirements and Advertising Restrictions on Cigars

No Federal laws require cigar manufacturers to report the tar, nicotine, and carbon monoxide
content of their products, nor have cigar manufacturers voluntarily disclosed their additives or
developed protocols for doing so. Only Texas and Minnesota require nicotine reporting of
cigars.31 Disclosures about tar, nicotine and carbon monoxide are collected by the Federal Trade
Commission (FTC) and annually reported to Congress for cigarettes and spit tobacco products.
Additionally, in 1994, cigarette and spit tobacco manufacturers voluntarily released lists of the
ingredients added to the tobacco in cigarettes. The Department of Health and Human Services
collects data submitted by tobacco manufacturers and importers on additives to cigarettes32 and
spit tobacco,33 however these data are aggregate and not brand specific. Cigar manufacturers
have not released similar lists.

Prior to February 1998, the FTC did not require cigar manufacturers to submit any financial or
sales information, as is required of manufacturers of cigarettes and spit tobacco. However, in
February 1998, the FTC ordered the top five leading cigar manufacturers to file the number of
cigars sold and amount spent on advertising, merchandising and promotion in 1996 and 1997.34
In addition, they must submit a categorical breakdown of advertising and marketing expenses for
each cigar brand and any money paid to motion pictures that featured the products. Under
Section Five of the Federal Trade Commission Act, the FTC could require manufacturers to place
health warnings in all advertisements if it had evidence that the failure to do so would deceive
consumers or otherwise be “unfair.” This FTC authority was the source of health warnings on
cigarette advertisements until the Comprehensive Smoking Education Act was enacted in 1984.

As for all product advertising, Federal and State truth in advertising laws require all cigar
advertisements to be truthful and all claims made to be substantiated. Aside from the Little Cigar
Act of 1973, there are no product specific advertising restrictions on cigars similar to those that
exist for cigarettes and spit tobacco. Large cigars may be advertised in electronic media. Little
cigars are the only type of cigars with an equivalent ban on broadcast advertising. Today, cigars
are commonly sold on the Internet, with over 150 cigar websites selling or advertising cigars.35
This new advertising medium now provides people of all ages exposure and access to cigars. The
Cigar Association of America (CAA) adopted a voluntary guideline on responsible marketing
practices in 1986 (“...cigar advertising should neither portray nor encourage use by individuals
who are or appear to be below the age of 21”). However, a recent survey by the American Lung
Association found that actors smoked cigars in 51 of 133 movies with at least a five million dollar
domestic box-office draw each.36,37 Self-acknowledgment of product placement in movies and
television by the CAA highlights that this voluntary guideline has not been strongly adhered to
since it was put into place back in 1986. The CAA’s voluntary standards were amended in March
1998 to say that, “Cigar manufacturers should not subsidize the use of cigars in movies or
television production through paid or donated cigar placements or otherwise.” The Association
has stated it will “admonish” its members to discontinue the use of product placement.38

Cigars Excluded from Food and Drug Administration’s Newest Tobacco Regulations

Effective in 1996, the Food and Drug Administration (FDA) began regulating cigarettes and spit


                                         )))))))))))
                                              8
tobacco as nicotine-delivery devices under the Federal Food, Drug and Cosmetic Act (the Act).39
The process the FDA went through to regulate these two products was both lengthy and
cumbersome. To assert jurisdiction over cigarettes and spit tobacco, the FDA had to conduct an
investigation to gather evidence that these products were drugs and/or devices as defined in the
Act.40 Although the health risks of smoking have long been known and the Surgeon General’s
warning label has existed since 1970, it was not until the early 1990's, that sufficient evidence
existed enabling FDA to regulate cigarettes and spit tobacco under the Act.41 Beginning in the
1980's, a significant new body of evidence became available that established the addictive nature
of nicotine in cigarettes and spit tobacco and provided a sound basis for the FDA to initiate a
regulatory investigation. Not only did FDA conclusively determine that nicotine exerts mood-
altering effects on the brain, but also that manufacturers intend for cigarettes and spit tobacco to
be used for the pharmacological purpose of delivering nicotine.42

FDA focused its investigation on cigarettes and spit tobacco products. FDA’s rule making did
not include cigars and pipe tobacco because the agency did not have sufficient evidence that these
products are drug delivery devices under the Food, Drug and Cosmetic Act. Sufficient evidence
was not available to the Agency when it wrote the proposed rule in 1995, nor when they issued
the final rule in 1996, to show that manufacturers of cigars and pipe tobacco intend their product
to affect the structure and function of the body like cigarettes and smokeless tobacco. In
addition, available epidemiological evidence at that time showed that young people predominantly
used cigarettes and spit tobacco. FDA remains open to initiating further investigations as new
evidence becomes available and, “...the agency will consider any additional evidence that becomes
available, including any new evidence that these products meet the statutory definitions, as well as
evidence that indicates that cigars and pipe tobacco are used significantly by young people.”43

The first phase of FDA’s regulation over cigarettes and spit tobacco became effective on February
28, 1997 when retailers were required to begin verifying the age of customers under age 27 by
requesting a photographic identification including the purchaser’s birth date. Retailers must not
sell cigarettes or spit tobacco to persons under age 18.44 As part of FDA’s outreach effort, they
will provide merchants with signs that can be displayed to inform potential cigarette and spit
tobacco purchasers of this new regulation. To reduce the number of retail outlets selling these
tobacco products to minors, FDA will contract with States to conduct retailer compliance checks.
FDA’s goal is to visit every tobacco retailer in every state at least once per year.45 Where that is
not possible, FDA seeks the maximum coverage possible. FDA is in the process of contracting
with each of the States to conduct compliance checks. In Fiscal Year 1998, 41 States, plus the
District of Columbia. signed contracts to inspect stores. FDA provided some retailers with a new
advertising campaign reminding stores that they face fines if they sell cigarettes and spit tobacco
to minors.46,47 Nevertheless, cigars are not included in the inspections because cigars are not
covered by the FDA regulations. However, with the heightened attention on cigarettes and spit
tobacco, there is a risk that merchants and consumers may overlook State laws enacted under the
Synar regulation to restrict the sale of cigars to persons under age 18.

Lack of Cigar Focus in Implementation of the Synar Regulation

In response to the Synar Amendment, those States who had not already done so must enact laws


                                          )))))))))))
                                               9
making it illegal to sell tobacco products to minors. Synar is currently the only authority granting
Federal oversight over all tobacco products, including cigars. The Synar Amendment (section
1926) was added to the Public Health Service Act (42 USC 290aa) in 1992 to strengthen efforts
to reduce the sale of all tobacco products to youth. States face the loss of significant amounts of
Substance Abuse Prevention and Treatment block grant money if they do not show progress in
reducing the sales of cigarettes to minors on a yearly basis. To implement Synar, States are
required to use their own resources as Synar is not funded by Federal dollars. Although States
are also required to enforce their own laws as applied to other tobacco products, including cigars,
little is known by the Substance Abuse and Mental Health Services Administration (SAMHSA)
about what is being done to enforce them.

SAMHSA currently requires States to conduct yearly, random, unannounced inspections to
measure tobacco sales to minors and report their progress yearly to the Secretary of the
Department of Health and Human Services. This is the only enforced Federal requirement
addressing the Synar regulation. The current recommended methodology for conducting such
inspections calls for purchase attempts by minors of cigarettes only, and not cigars or spit
tobacco. In working with the States to develop an appropriate methodology for implementing the
Synar Amendment, SAMHSA weighed several variables including the relatively high volume of
cigarette use compared to cigar and spit tobacco use by minors and resource constraints faced by
the States who do not receive Federal dollars to implement Synar. As a result of this analysis,
SAMHSA chose to prioritize enforcement efforts and focus exclusively on cigarettes. Finally,
SAMHSA encourages States to focus on cigarette sales to minors in order to establish a
consistent measurement within each State.

SAMHSA has helped each State develop a statistically valid random sampling methodology with
confidence intervals of 95 percent. Through random sampling, States establish a baseline rate for
sales of tobacco products (cigarettes) to minors and then measure changes in that rate over time.
States are required to use compliance checks to gather this data.48 In implementing the Synar
regulation as applied to cigarettes, States have faced a number of barriers. One of the biggest
barriers in enforcing their tobacco laws is the lack of adequate resources for implementation
efforts.49 According to their FY 1998 SAMHSA Block Grant applications, 12 States report
meeting the target of reducing to less than or equal to 20 percent, the percentage of retailers
detected selling tobacco to minors in the annual Statewide surveys.50 However, this target applies
only to cigarettes. Under the current structure, States have no clear incentive to enforce their
tobacco laws as applied to cigars or spit tobacco, although the Synar regulation requires this of
States.




                                          )))))))))))
                                               10
STATE LAWS, ENFORCEMENT, AND TRAINING

State Enforcement Of Laws And Regulations Prohibiting The Sale To, And Use Of Cigars
By, Minors Is Currently Severely Limited.

All States (51) have tobacco laws broad enough to encompass cigars, with most explicitly stating
that cigar sales to minors and their purchase, possession, and use of cigars are prohibited.51

All States and the District of Columbia not already having minors’ access laws have addressed
part of the Synar regulation by enacting or modifying laws or regulations restricting the sales and
distribution of tobacco products to minors. In addition to Federal requirements, many States
further restrict minors’ access through laws that punish minors for either purchasing, possessing,
or using tobacco products. In 33 States, it is illegal for minors to purchase tobacco products; in
26 States it is illegal for minors to possess tobacco products, while in 16 States it is illegal for
minors to use tobacco products. Eleven States restrict tobacco advertising and seven States
restrict the display of tobacco products.52 (See Appendix A for a complete State breakout.)

States also volunteered a number of additional restrictions they use to control minors’ access to
tobacco. Specifically, numerous States restrict vending machine placement.53 Other State or local
restrictions on tobacco products include: prohibitions on free or low cost distribution of tobacco
products, tobacco restrictions at schools or sales close to schools, and billboard restrictions.
Some States or localities also make it illegal to falsely represent one’s age in order to purchase
tobacco or to knowingly allow a person under age 19 to use tobacco in a place of business.

Seventeen States include a combination of four or more restrictions in their tobacco laws or
regulations controlling minors’ access to tobacco products. Texas currently prohibits the sale,
purchase, possession, and use of tobacco products by minors; they also restrict the display and
advertising of tobacco products.

However, States do not evenly enforce the laws and regulations that govern minors’ access to
tobacco. Cigars, in particular, currently receive a very low enforcement priority.

Over the years, States faced a number of barriers in conducting yearly, random, unannounced
inspections to measure tobacco sales to minors. In particular, States have experienced difficulties
in obtaining lists of tobacco vendors, which has increased the difficulty of performing inspections
using scientific sampling.54 In an effort to help States standardize their inspections across States
and over time, SAMHSA encouraged States to focus their methodologies on inspections using
cigarettes, to the exclusion of other tobacco products, such as cigars and spit tobacco. Currently,
nearly all States have released baseline results from their unannounced inspections using minors to
buy cigarettes as part of their latest SAMHSA block grant application. Beyond these yearly
inspections, the Synar regulation also requires States to reduce the sale of all tobacco products to
minors. Typically, States use compliance checks to measure the extent to which tobacco products
are sold to minors in their State. Although States regularly use compliance checks for cigarettes,
only 38 States reported using this method to restrict minors’ access to spit tobacco. Even fewer
States (27) reported using compliance checks for cigars, and of these, 16 States reported such


                                          )))))))))))
                                               11
checks are rarely or seldom performed.

Forty-four States reported a variety of options for controlling minors’ access to cigars, such as
follow-up on complaints, compliance checks using minors, and observation of minors’ attempted
purchases. However, these methods are rarely or seldom applied.

Forty-four States reported having tools available that attempt to control minors’ access to cigars.
States were fairly candid, expressing,“Up until recently it has not been considered a priority,”
and, “Compliance checks focus on cigarettes.” Three different methods were available to control
minors’ access to cigars, but States were fairly candid in reporting how infrequently their State
applied any systematic enforcement mechanisms for cigars. The majority of States said they were
not consistently applying any particular enforcement technique to cigars, while a few States were
reluctant to answer questions about how frequently these techniques are used in their State.

< Follow-up on Complaints: Of the methods mentioned, the most frequent was the passive
method of State follow-up on any complaints received. Of the 29 States mentioning this method,
12 said it is rarely applied to control minors’ access to cigars, another 4 States said they seldom
used it, and 5 States said they used it sometimes.55 Nevertheless, seven States reported always
using follow-up on complaints of cigar sales to minors as a method to control access. One State
reported using this method but failed to disclose how often it is applied to cigars.

< Minor Compliance Checks: Although all States should be using compliance checks for the
purposes of measurement to comply with the Synar regulation, only 27 States report using minors
for cigar purchase compliance checks to control cigar access.56,57 However, ten States rarely
applied this technique to cigars, six seldom applied it, and seven States only sometimes applied
this method. Only two States said they always utilized compliance checks using minors to
purchase cigars. In follow-up conversations, one of these States reported they do not
differentiate tobacco products, but assume that enforcement is always applied to cigars. This
State reported there is no way to either calculate how many compliance checks target cigars or
the number of complaints their State receives regarding illegal cigar sales. This State’s
assumption paralleled information reported by other States. Two States did not report how often
this method was used.

< Observation of Attempted Purchases: A less common method of controlling cigar access by
minors was observing minors’ attempted cigar purchases. Of the 16 States using this method, 4
reported they rarely apply this technique to cigars, and 9 sometimes do. Only three States
reported they always apply this method to cigars.

<    States Not Currently Attempting to Control Minors’ Access to Cigars: Seven States do not
attempt to control minors’ access to cigars. States explained this is because they are currently
concentrating on other tobacco products, such as cigarettes and spit tobacco.

As one State explained, “In this early stage of enforcement, we are focusing on the most serious
problem - cigarettes, which are the primary source of adolescent and adult health problems. As
our experience and effect increases, we will add smokeless tobacco, and, finally, cigars to


                                         )))))))))))
                                              12
enforcement activities.” Likewise, another State said, “Technically, cigars are controlled by laws;
however, enforcement activities have thus far focused on other tobacco products.”


Statewide training of tobacco merchants, as well as information about these merchants, is limited.
For example, while 36 States require a license or permit to sell tobacco, the majority of States
could not provide a list of merchants selling cigars because they do not require merchants to
specify the type of tobacco products sold.

The majority of States (35 States) provide some training for merchants selling tobacco products.
Only 11 States do this statewide, while 12 additional States conduct such training for some
tobacco merchants. The remaining States provide merchant training in targeted areas only or
upon request, and/or provide information in merchant packets. Only 19 States reported
specifically telling merchants that they are prohibited from selling cigars to minors. Thirty-six
States require a license or special permit for tobacco retailers in general.58

In order for States to conduct tobacco compliance checks of merchants using random sampling,
they must obtain a list of all merchants selling tobacco products in their State. However, as States
have addressed SAMHSA’s and FDA’s methodology for conducting compliance checks for
cigarettes, they have experienced a number of barriers. One barrier is obtaining a statewide list of
merchants selling tobacco, while another barrier is determining which merchants sell cigarettes.
With the emergence of specialized cigar shops, States have attempted to eliminate these
merchants from their lists because SAMHSA’s and FDA’s approved methodologies only include
compliance checks using cigarettes. Because most States’ licensing and permits do not require
merchants to specify which tobacco products they sell, States often can only determine this
information by visiting the merchant’s shop or through review of excise tax information.

While the lack of specific tobacco information has been problematic for cigarettes, it also presents
a problem for States trying to obtain cigar sales information from merchants. Seventeen States
could not obtain a list of all merchants who sell cigars in their State, while one State did not know
if their State could obtain this information. Only eight States say they could provide a list of
merchants who sell cigars in their State. However, four of these States mentioned that it would
be a more general list of those selling any type of tobacco, including cigars. Three States said
they could not list all cigar merchants because their list of vendors is also not broken down by the
type of tobacco product sold.

Twenty-five States report providing public education regarding cigar use, but most appear to only
address tobacco in general. However, three States are currently using or planning to use public
service announcements or media campaigns that specifically address the dangers of cigar use.

Nearly half (25) of States said they provide public education regarding cigar use, with 14 States
providing this education on an ongoing basis. However, it was unclear how many of these States
focused on tobacco in general, rather than specifically mentioning cigars in their public education
efforts. We ascertained that three States are currently using or planning to use public service
announcements (PSA’s) or media campaigns specifically focused on cigars. Based on a survey of


                                          )))))))))))
                                               13
boys and girls in two New York counties which found widespread cigar use, the State now runs
PSA’s aimed specifically at cigar usage and teens. They developed three separate PSA’s ranging
from 10 to 30 seconds in length that address the hazards of cigar smoking. Their 30 second PSA
says,



             “In movies and magazines, good times and cigars often seem to go
             together. But that’s not the whole story. Behind the smokescreen of
             false glamour, cigars cause bad breath and stained teeth, just as
             cigarettes do. And don’t forget what the smell of stale cigar smoke
             does to your clothes and hair. What else you don’t see in the billows of
             cigar smoke are the nicotine and other poisons. Even if you don’t
             inhale, cigar smoke can cause cancer of the lung, mouth and throat. The
             poisons in cigar smoke can also lead to heart and lung disease. The
             (county health agency name) says: Behind the smokescreen, there is
             nothing but smelly, poisonous smoke.”



The State of California has developed a statewide media campaign addressing the myth that cigars
are safer than cigarettes because cigar smoke is not inhaled.59 With kids as young as 12 and 13
experimenting with cigars in California, they found the necessity to increase awareness about the
serious health hazards of cigar smoking. The campaign includes a television commercial and
radio advertisement. As stated by California’s Health Department director, “We anticipate that
the somewhat humorous tone of the two ads will attract the attention of teens and young adults,
and that they’ll also get the serious message that cigars are more than fashionable -- they’re life
threatening.” The Massachusetts Department of Public Health has developed a 30 second
television spot, 60 second radio spot, and a poster to illustrate to youth that the tobacco industry
and media are manipulating them.60 This new campaign will air statewide to counter the cigar
exposure kids are receiving in movies, television shows, and music videos. Their television spot is
filmed very much like a popular music video, using an “industry rap” to highlight how the industry
tries to persuade black kids to smoke cigars. The spot closes with the phrase, “Don’t let the
tobacco companies play you.” The 60 second radio ad also uses a tobacco industry guy rapping a
tune. The rap song begins with, “We know you people well, we know what to do. You see
rappers with cigars, you want to smoke ‘em too.”

Although delivering a similar message about the dangers and effects of cigar smoking, all three
States have chosen somewhat different target audiences. Clearly, States will need to keep in mind
the diversity among cigar users and develop anti-cigar media campaigns that capture the attention
of as many of these groups as possible. The three States conducting public education campaigns
are good examples of how to counter the glamorous message currently being delivered in movies,
television, and the media.

Many States lack a general awareness about the extent of cigar sales to minors, the ease with


                                         )))))))))))
                                              14
which minors can purchase cigars, and the degree to which minors’ use of cigars is a problem in
their State.

With few State controls to enforce tobacco laws and regulations as applied to cigars, it should not
be surprising that States lack a general awareness about the extent of cigar sales to minors.
Twenty-two States admit they do not know the extent of cigar sales to minors. Three States
reported cigar sales to minors were a serious problem in their State, while five reported they were
a moderate problem. Another 13 States reported cigar sales to minors as a minor problem. Only
one State said cigar sales to minors was not a problem in their State.

Of the seven States reporting that cigars are not currently included in their control or enforcement
activities, five States said that they do not know the extent of the problem of cigar sales to
minors, while one State said they viewed it as a moderate problem and one said it was a minor
problem. Only four States were aware of any completed studies of the use of cigars by minors or
young adults in their States. For example, California specifically asks youth (12-17 years old)
about the prevalence of cigar use in their annual tobacco phone survey, and Massachusetts asks
their students about lifetime and current cigar use. Six other States report plans for such studies
at the State (5) or local (1) level. These States plan to incorporate specific cigar questions into an
existing youth survey.

Those few States mounting active attempts to control minors’ access to cigars report they are
detecting that minors can purchase cigars with the same ease as cigarettes.

Twenty-two States do not know how easily minors can purchase cigars, as compared to
cigarettes. However, of the 13 States more actively controlling minors’ access to cigars by using
three or more control methods, the majority (9 States) report that minors can purchase cigars with
the same ease (8) or even somewhat greater ease (1) than they can buy cigarettes.61 Of the 31
States currently using less than three control methods to control minors’ access to cigars, the
majority (19) do not know the ease of cigar purchases compared to cigarette purchases.




                                          )))))))))))
                                               15
BARRIERS TO CIGAR ENFORCEMENT

Lack Of Resources And Low Enforcement Priority Are Seen As The Most Significant
Barriers To Effective Control Of Cigar Use By Minors.

State contacts listed a number of barriers to the effective enforcement of cigar laws and

regulations restricting access to minors. The biggest barriers, listed by 31 State contacts, dealt

with insufficient resources for enforcement and/or a general unwillingness by the community and

local law authorities to prioritize enforcement. It should be noted that the Synar enforcement 

requirements are an unfunded State mandate. Many State contacts reported struggles in

enforcing their tobacco laws, in general, while a few State contacts mentioned specific barriers to

cigar and spit tobacco enforcement. 


A few typical comments related to this barrier included: “The issues regarding enforcement are

virtually the same regardless of the type of tobacco. Those issues include: lack of recognition of

the seriousness of the problem and lack of coordinated enforcement efforts;” and

“At this time there is a lack of resources within the State to adequately address cigar usage

separately. However, the coming trend and increased availability lead the State to believe that this

product will need separate attention in the future.”


Secondary to low priority and resource constraints, 13 State contacts listed a lack of awareness of

the dangers of cigar usage and the extent of minors’ usage in their State as a major barrier. One

contact typified this barrier by saying, “Both cigars and smokeless tobacco have not been viewed

as serious health risks. The primary focus has been on cigarettes.” 


Additional barriers listed by State contacts include problems with retailers (12 States), such as

failing to enforce the laws, placement of cigars in accessible locations, and the lack of licensing. 

Illustrative responses included: “Clerks typically associate teen tobacco use with cigarettes only. 

Thus, sales are more likely to occur when it comes to cigar or smokeless tobacco use;” and “We

are seeing an increase in cigar use as enforcement on cigarettes and retailer awareness grows.”


Lastly, five State contacts list industry marketing practices linking cigars with glamour and

success, as well as product placement in youth-oriented movies and TV shows as barriers to

enforcement. The lack of inclusion of cigars in the FDA regulations is also mentioned as a barrier

by four State contacts. Eighteen State contacts recommend that cigars should be included in the

FDA regulations. 





                                          )))))))))))
                                               16
                             RECOMMENDATIONS

Our study focused on the application of Federal and State laws and regulations aimed at
restricting youth access to cigars. We found that the shield of protection in place for other
tobacco products is largely missing for cigars. As part of our background research, we learned
that much new knowledge about cigars and cigar use has become available since the development
of the regulations implementing the Synar Amendment and FDA’s rule on cigarettes and spit
tobacco. Much of that new information is highlighted in NCI’s cigar monograph. When
combined with the additional insights profiled in our companion report on the use of cigars by
teens, we feel that sufficient evidence exists to warrant the Department to address the emerging
health risks of cigar usage.

We recognize that when compared to the existing knowledge on cigarette use and addiction there
is still much to learn about cigar usage. Different tobacco products and delivery forms may pose
different health risks and this should guide development of policy and regulation. However, these
differences should not prevent the Department from assessing and appropriately responding to
this emerging public health risk.

Given what we already know about the health risks of cigars, the step-up in advertising and
glamorization of the product, the susceptibility of youth to such inducements, the surprisingly high
levels of cigar use by youth, and the widespread phenomenon of “blunting” cigars for marijuana
consumption, we recommend that the various components of the Department (CDC, FDA, NIH,
SAMHSA, ASPE, etc.) under the leadership of the Assistant Secretary for Health develop an
action plan to address the public health risks posed by cigar use, particularly access by youth.

As a first step, we recommend an initiative to inform the public about the health risks associated
with cigar smoking. The Assistant Secretary for Health is well positioned to help the appropriate
agencies within the Department develop a public awareness and health risk educational effort
appropriate for cigars. This public effort would support the Department’s Healthy People 2010
goal (draft) to, “reduce the proportion of young people in grades 9-12 who have used tobacco
products.” For cigars, the goal is to reduce youth use from a high of 22 percent in 1997 to 9
percent by 2010. This effort could include pursuing a collaborative effort with the Federal Trade
Commission and Congress to initiate a Surgeon General’s Warning Label for cigars.

Second, the Department should address the need for additional research on cigars, including
prevalence, patterns of use, youth access and ease of purchase, health effects, the addictive
potential of cigars, and the practice of “blunting,” or using cigars to smoke marijuana. This initial
effort should specifically address the adequacy of the Department’s data collection and survey
capacity for monitoring trends in cigar use and whether to incorporate additional questions on
cigar usage into existing Departmental school-based, household and other ongoing surveys of
tobacco and drug usage.

Data gleaned from this research agenda may provide information that will enable the Department
to refine the action plan and address more specific issues such as how best to expand enforcement
efforts under the Synar Amendment to address cigars, including identifying resources needed to

                                          )))))))))))
                                               17
accomplish this, and whether FDA should initiate the investigatory process for asserting
jurisdiction over cigars comparable to that exercised by the FDA over cigarettes and spit tobacco
and/or have Congress expressly affirm FDA’s authority to regulate cigars.




                                         )))))))))))
                                              18
                                     ENDNOTES 

1.	   The cigar prevalence information reported by CDC came from the Robert Wood Johnson
      Foundation’s (RWJF) 1996 National Study of Tobacco Price Sensitivity, Behavior, and
      Attitudes Among Teenagers and Young Adults.

      U.S. Department of Health and Human Services, Public Health Service, Centers for
      Disease Control and Prevention. “Cigar Smoking Among Teenagers - United States,
      Massachusetts, and New York, 1996.” Morbidity and Mortality Weekly Report
      (MMWR). May 23, 1997. 46: Online. Internet.

2.	   Data from a 1996 survey by the Massachusetts Department of Public Health of high
      school and junior high school students.

      U.S. Department of Health and Human Services, Public Health Service, Centers for
      Disease Control and Prevention. “Cigar Smoking Among Teenagers - United States,
      Massachusetts, and New York, 1996.”

3.	   Data from a 1996 survey by the Massachusetts Department of Public Health of high
      school and junior high school students.

      U.S. Department of Health and Human Services, Public Health Service, National Institutes
      of Health, National Cancer Institute. Cigars: Health Effects and Trends, Smoking and
      Tobacco Control. Monograph Number 9, April 1998.

4.    Data from the 1996 California Tobacco Survey.

      News Release. California Department of Health Services. “California Launches Public
      Awareness Campaign Targeting the Increase in Cigar Use,” March 30, 1998.

5.	   U.S. Department of Health and Human Services, Public Health Service, Centers for
      Disease Control and Prevention. “Tobacco Use Among High School Students -- United
      States, 1997.” Morbidity and Mortality Weekly Report (MMWR). April 3, 1998. 47:
      No. 12.

6.	   U.S. Department of Health and Human Services, Public Health Service, Centers for
      Disease Control and Prevention. “Tobacco Use Among High School Students -- United
      States, 1997.”

7.	   Data from SAMHSA’s 1997 National Household Survey on Drug Abuse (NHSDA)
      shows current past month cigar use for 12-17 year olds to be only 5 percent. One of the
      biggest discrepancies in the Youth Risk Behavioral Survey (YRBS) data and the NHSDA
      data is the methodology used to collect the data. The 1997 YRBS data is based on a
      representative sample of 16,262 students in grades 9-12 in the 50 States and the District of
      Columbia. The 1997 NHSDA data is based on a household survey of 24,505 respondents


                                        )))))))))))
                                             19
       including 7,844 young people aged 12-17. The NHSDA cigar data is obtained through a
       self-administered questionnaire taken by the child. While every effort is made to afford
       the child privacy in the interview, the child’s parent may or may not be in the room during
       the interview. Additionally, the NHSDA cigar questions were located in a “non-core”
       section of the 1997 questionnaire that also inquired about needle use and other hard core
       drug use. The YRBS cigar questions are located in a separate section about tobacco use.
       These two differences could help explain some of the discrepancies in the two sources of
       data. Beginning in 1999, the NHSDA will be administered using computer assisted
       technology. Also in 1999, the NHSDA questionnaire will include cigar questions in a
       separate section with other tobacco use.

8.	    Data from the Roswell Park Cancer Institute’s 1996 Survey of Alcohol, Tobacco, and
       Drug Use in two New York counties.

       U.S. Department of Health and Human Services, Public Health Service, Centers for
       Disease Control and Prevention. “Cigar Smoking Among Teenagers - United States,
       Massachusetts, and New York, 1996.”

9.	    Klein, Alec. “The Shaping of an Illusion,” The Baltimore Sun, Sunday, January 11, 1998.
       Online. Internet.

10.	   U.S. Department of Health and Human Services, Public Health Service, Centers for
       Disease Control and Prevention, Center for Chronic Disease Prevention and Health
       Promotion, Office on Smoking and Health. Reducing the Health Consequences of
       Smoking: 25 Years of Progress - A Report of the Surgeon General. DHHS Publication
       Number (CDC) 89-8411, 1989.

11.	   U.S. Department of Health and Human Services, Public Health Service, National Institutes
       of Health, National Cancer Institute. Cigars: Health Effects and Trends, Smoking and
       Tobacco Control. Monograph Number 9, April 1998.

12.	   U.S. Department of Health and Human Services, Public Health Service, National Institutes
       of Health, National Cancer Institute. Cigars: Health Effects and Trends, Smoking and
       Tobacco Control. Monograph Number 9, April 1998.

13.	   The monograph does not formally define “regular” cigar smoker. However, a “regular”
       cigar smoker commonly refers to a person who smokes cigars 3-4 times a week.

14.	   This data is based on the Cancer Prevention Study I of the American Cancer Society. This
       prospective cohort study was conducted between 1959 and 1972 and followed more than
       one million individuals for twelve years. The age-standardized rate ratio of lung cancer
       for primary cigar smokers compared to neversmokers varied from 0.9 to 3.40 depending
       on the number of cigars smoked per day. The combined rate ratio was 2.10 for all levels
       of cigar smokers. The age-standardized rate ratio of mouth and throat cancer for primary
       cigar smokers compared to neversmokers varied from 2.12 to 15.94 depending on the
       number of cigars smoked per day. The combined rate ratio was 7.92 for all levels of cigar


                                         )))))))))))
                                              20
       smokers.

15.	   Company Press Release. “New Study Casts Cloud Over Trendy Tobacco Product: Cigar
       Smokers at Increased Risk of Death,” Thursday, March 19, 1998. Online. Internet.

16.    The Washington Post, March 21, 1998. Online. Internet.

17.    Ibid.

18.    Ibid.

19.	   One of the world’s largest cigar companies, Swisher International Group, Inc. reported a
       73 percent increase in net income for the fourth quarter of 1997. Although higher unit
       sales and pricing for both cigars and smokeless tobacco were responsible for such
       increases, cigar unit sales were up 12 percent or over 40 million units. Swisher
       International Group, Inc. produces a variety of machine-made cigar product lines
       including 10 different types of Swisher Sweets and 12 types of King Edward cigars.
       Company Press Release. “Swisher International Group, Inc. reports 73 percent Increase
       in Fourth Quarter 1997,” Thursday, February 5, 1998. Online. Internet.

20.	   Consolidated Cigar Holdings, Inc. reported a net sales increase of 80 percent from the
       fiscal year ending 1997 compared to 1996. The company held a continued trend of
       premium and mass-market cigars responsible for this growth.

21.	   News Release. California Department of Health Services. “California Launches Public
       Awareness Campaign Targeting the Increase in Cigar Use,” March 30, 1998.

22.	   Fermented tobacco leaves and a tobacco wrapper (versus paper) are two characteristics
       distinguishing cigars from cigarettes.

23.	   U.S. Department of Health and Human Services, Public Health Service, National Institutes
       of Health, National Cancer Institute. Cigars: Health Effects and Trends, Smoking and
       Tobacco Control. Monograph Number 9, April 1998.

24.	   Swisher International recently added Swisher Blunts to their product-line, while Phillies
       added Phillies Sweets to their already popular Phillies Blunt product-line.

25.	   An example highlighted in the OIG study (OEI-06-98-00030), is the May 1998 cover of
       Vibe magazine which features rapper/hip-hop success Master P with a cigar in his mouth.

26.	   The Public Health Service Act (42 USC 290aa) was amended in 1992 by the Synar
       amendment (Section 1926) to strengthen efforts to reduce the sale of all tobacco products
       to youth.

27.	   In 1965, the generic cigarette health warning read, “Caution: Cigarette Smoking May Be
       Hazardous to Your Health.” However, in 1970 the strengthened warning on cigarette
       packages read, “Warning: The Surgeon General Has Determined That Cigarette Smoking


                                         )))))))))))
                                              21
       Is Dangerous to Your Health.” U.S. Department of Health and Human Services, Public
       Health Service, Centers for Disease Control and Prevention, Center for Chronic Disease
       Prevention and Health Promotion, Office on Smoking and Health. Reducing the Health
       Consequences of Smoking: 25 Years of Progress - A Report of the Surgeon General.

28.	   U.S. Department of Health and Human Services, Public Health Service, National Institutes
       of Health, National Cancer Institute. Cigars: Health Effects and Trends, Smoking and
       Tobacco Control. Monograph Number 9, April 1998.

29.	   As a result of a 1988 lawsuit, the State of California requires that tobacco products carry a
       warning label on the retail package, but not the individual cigars. Some manufacturers
       include the required warning label on a sticker for cigar distribution in California only,
       while several manufacturers actually place it on the retail package. In the case of many
       premium cigars, this warning label is found on the inside of cigar boxes.

30.	   Often, the warning label uses very small print and is located on the side of the cigar box.
       Some manufacturers also place the label on a very dark background which makes it
       especially difficult to see.

31.	   U.S. Department of Health and Human Services, Public Health Service, National Institutes
       of Health, National Cancer Institute. Cigars: Health Effects and Trends, Smoking and
       Tobacco Control. Monograph Number 9, April 1998.

32.	   Federal Cigarette Labeling and Advertising Act. 15 U.S.C., 1335a, Section 7, Cigarette
       Ingredients.

33.	   Comprehensive Smokeless Tobacco Health Education Act of 1985. 15 U.S.C., 4403,
       Section 4, Ingredient Reporting.

34.	   The Associated Press. “FTC Wants Cigar Maker Finance Data,” The Washington Post,
       February 9, 1998. Online. Internet.

35.	   U.S. Department of Health and Human Services, Public Health Service, National Institutes
       of Health, National Cancer Institute. Cigars: Health Effects and Trends, Smoking and
       Tobacco Control. Monograph Number 9, April 1998.

36.	   Cigar Association of America publication. Banding Together: Keeping Cigars Away
       From Kids. 1998.

37.	   The Associated Press. “Cigars to Have Fewer Movie Roles,” The Washington Post,
       March 21, 1998. Online. Internet.

38.    Ibid.

39.	   Federal Register/Vol. 61, No. 168/Wednesday, August 28, 1996/Rules and Regulations,
       page 44423. 21 CFR Part 801, et al. Regulations Restricting the Sale and Distribution of
       Cigarettes and Smokeless Tobacco to Protect Children and Adolescents; Final Rule.

                                         )))))))))))
                                              22
40.	   According to the Act, a drug is defined as “A . . . (2) an article (other than food) intended
       to affect the structure or any function of the body of man or other animals. “The Act’s
       device definition parallels the drug definition and provides that an instrument, apparatus or
       other similar article is a device if it is . . . (2) intended to affect the structure or any
       function of the body of man or other animals.“ Using these criteria, FDA proved that the
       nicotine in cigarettes and smokeless tobacco is a drug and that cigarettes and smokeless
       tobacco are drug delivery devices whose effect their manufacturers intend.

41.	   Federal Register/Vol. 61, No. 168/Wednesday, August 28, 1996/Rules and Regulations,
       page 44423. 21 CFR Part 801, et al. Regulations Restricting the Sale and Distribution of
       Cigarettes and Smokeless Tobacco to Protect Children and Adolescents; Final Rule.

42.	   It has been conclusively determined that nicotine exerts mood-altering effects on the brain
       and that it motivates repeated, compulsive use which creates dependence in the user;
       nicotine delivered by cigarettes and spit tobacco causes and sustains addiction. In
       addition, nicotine causes other drug-effects such as producing tranquilizing or arousal-
       inducing effects on the body, and induces weight loss. Evidence obtained from the release
       of internal tobacco company documents confirms evidence developed by independent
       researchers that cigarettes and spit tobacco affect the structure or any function of the body
       and that manufacturers intended that these effects occur.

       FDA found three types of objective evidence provide independent bases for finding that
       cigarette and spit tobacco manufacturers intend for their products to affect the structure or
       any function of the body: (1) the evidence of foreseeable pharmacological effects and uses
       of cigarettes and spit tobacco; (2) the evidence of actual consumer use of cigarettes and
       spit tobacco for pharmacological purposes (e.g., drug effects); and (3) the evidence of the
       statements, research, and actions of the manufacturers themselves that they understand
       that consumers use cigarettes and spit tobacco to obtain the pharmacological effects of
       nicotine and that they design their products to provide a pharmacologically active dose of
       nicotine. When considered independently or cumulatively, this evidence convincingly
       demonstrates that their manufacturers intend for cigarettes and spit tobacco to be used for
       pharmacological purposes.

43.	   Federal Register/Vol. 61, No. 168/Wednesday, August 28, 1996/Rules and Regulations,
       page 44423. 21 CFR Part 801, et al. Regulations Restricting the Sale and Distribution of
       Cigarettes and Smokeless Tobacco to Protect Children and Adolescents; Final Rule.

44.	   MedicineNet News. “Tobacco Regulation and the FDA,” September 5, 1997. Online.
       Internet.

45.	   In the first year of the program (1998), FDA expects to visit one-third of the nation’s
       tobacco retailers and conduct between 100,000 - 200,000 compliance checks. Starting
       with the third year of the program, FDA expects to visit 80 percent of all tobacco retailers
       and to conduct a half million compliance checks annually. Once compliance checks
       identify retailers in violation of its regulations, FDA begins enforcement actions. For a first
       violation, FDA sends the retailer a letter explaining the new regulations, describing the

                                          )))))))))))
                                               23
       violation and informing the retailer that another compliance check will be scheduled. With
       a second violation, FDA assesses a civil money penalty of $250 which escalates upwards
       from $1,500 for the third violation to $10,000 for a fifth violation within 36 months.
       Funds to conduct follow-up compliance checks for violators will come from the total
       funds contained in each State’s contract with FDA.

46.	   The Associated Press. “U.S.: Teen Tobacco Sales Persist,” The Washington Post,
       February 27, 1998. Online. Internet.

47.	   The eleven States with FDA contracts are Arkansas, California, Colorado, Florida, Illinois,
       Massachusetts, Minnesota, North Carolina, Pennsylvania, Texas, and Washington.

48.	   To develop their random sample of tobacco retailers, States typically divide the State into
       regions, and within each region either develop their sample using the established list of
       licensed vendors within the State. If such a list is not available, States use a commercial
       list or work from a stratified random sample of zip codes within each region and visit
       every retailer in those identified zip codes.

       SAMHSA has worked with each State to develop sampling methodology, set goals for
       reducing the rate of sale of tobacco products to minors and set a timeline for achieving a
       rate of sale under 20 percent by the year 2002. If a State fails to meet those goals, Synar
       regulations require that SAMHSA reduce the amount of the Substance Abuse Prevention
       and Treatment Block Grant paid to the State.

49.	   Jacobson, Peter D. and Jeffrey Wasserman. Tobacco Control Laws: Implementation and
       Enforcement. RAND, Santa Monica, CA. 1997.

50.    Data provided by SAMHSA’s Center for Substance Abuse Prevention. November 1998.

51.	   All data provided is self-reported by experts in each State deemed the most knowledgeable
       about tobacco enforcement. Our survey instrument inquired about both State laws and
       regulations. Differences exist with the CDC because our information includes State
       regulations and theirs does not. The biggest difference exists in the information presented
       in the following section. According to CDC, most States do not explicitly list cigars as
       part of the definition of tobacco. In fact, only 23 States do. Of those 23 States, only five
       prohibit the purchase, possession, and use of tobacco products, including cigars. Fourteen
       States offer some combination of access restrictions (such as purchase only or possession
       only). The final three States do not offer any purchase, possession, or use language in
       their access laws.

52.	   Although information reported about State laws was self-reported by contacts deemed
       knowledgeable about tobacco control in each State, we cross-checked this information
       with information collected by CDC as of March 31, 1998. We also followed up with
       selected States and CDC to resolve any discrepancies.

53.	   We did not specifically ask about vending machine restrictions in our survey. However,
       11 States mentioned they have restrictioned vending machine placement. CDC’s

                                         )))))))))))
                                              24
       November 3, 1995 MMWR reported 37 States had laws in place addressing vending
       machines.

54.	   U.S. Department of Health and Human Services, Office of Inspector General, Office of
       Evaluation and Inspections. State Oversight of Tobacco Sales to Minors.
       OEI-02-94-00270. April 1995.

55.	   A five-point scale was used by State respondents to describe how often methods to
       control minors’ access to cigars are applied in their State. The scale included: always,
       very frequently, sometimes, seldom, and rarely.

56.	   Using minor compliance checks as an enforcement measure implies there is some sort of
       penalty either to the clerk or the store related to the sale of a tobacco product to minors.
       An important measure of the enforcement of minors’ access laws is the number of fines or
       tickets given as a result of illegal tobacco sales to minors. The goal of enforcement is a
       reduction in the percentage of retailers willing to sell tobacco to minors, and ultimately a
       reduction in the percentage of youth who use tobacco products in order to decrease
       morbidity and mortality related to tobacco use. Unfortunately, this information is usually
       not available or recorded centrally by the State.

57.	   There are two purposes for compliance checks of tobacco sales to minors. One is for
       measurement purposes and one is for enforcement. In order to meet the requirements of
       the Synar regulation, States are required to use compliance checks to gather the rate of
       sale for tobacco products (cigarettes) to minors. Compliance checks used for
       measurement purposes do not identify and penalize individual retailers who sell tobacco to
       minors. However, compliance checks used for the purposes of enforcement identify
       retailers who sell tobacco to minors. Although penalties vary by State for such sales, most
       States have escalating fines for repeat violations.

58.	   CDC found that 36 States had laws in place as of March 31, 1998 that required licensing
       of tobacco products in general. However, only 28 States reported to us that they required
       a license or special permit for cigar retailers.

59.    News Release. California Department of Health Services. March 30, 1998.

60.    Massachusetts Department of Public Health. Media correspondence. April 6, 1998.




                                         )))))))))))
                                              25
61.	       Table 1 below illustrates that those States more actively controlling minors’ access to
           cigars also reported minors can purchase cigars with the same ease or even somewhat
           greater ease than they can buy cigarettes. Although we do not know why this relationship
           exists, we suspect the States with more controls in place have done more to learn about
           the cigar sales to minors and were more in touch with the extent of the problem.
        Table 1: Number of Methods Used to Control Minors’ Access To Cigars by Ease of Minors’ Cigar
                                     Purchase vs. Cigarette Purchase

                                               Ease of Minors’ Cigar Purchases Compared to Cigarettes

    Number of Tobacco Control         Somewhat or       About the     Somewhat or   Don’t          Total*
    Methods Used                      Much Easier        Same         Much Harder   Know           States

    < 3 Control Methods Used               3%              23%             13%       61%          100%
                                           (1)              (7)             (4)      (19)          (31)

    > 3 Control Methods Used                8%             61%             8%        23%          100%
                                            (1)             (8)            (1)        (3)          (13)
*      Note: Only 44 States report controlling minors’ access to cigars.




                                                  )))))))))))
                                                       26
                                       APPENDIX A


                                 STATEWIDE TOBACCO LAWS

                       Sale to     Illegal for   Illegal for    Illegal      Display      Advertising
                       Minors      Minors to     Minors to        for      Restrictions   Restrictions
                       Illegal     Purchase        Possess     Minors to
                                                                  Use

Alabama                  U             U             U            U

Alaska                   U                           U

Arizona                  U             U             U

Arkansas                 U

California               U             U             U                                         U

Colorado                 U             U

Connecticut              U             U

Delaware                 U             U

District of Columbia     U                                                      U

Florida                  U             U             U                          U

Georgia                  U             U

Hawaii                   U             U

Idaho                    U             U             U            U

Illinois                 U             U                                                      U*

Indiana                  U             U             U

Iowa                     U             U             U            U

Kansas                   U             U             U

Kentucky                 U             U                                                      U*

Louisiana                U             U             U                                        U*

Maine                    U             U             U            U

Maryland                 U                           U            U

Massachusetts            U




                                           )))))))))))
                                               A - 1

                 Sale to   Illegal for   Illegal for    Illegal      Display      Advertising
                 Minors    Minors to     Minors to        for      Restrictions   Restrictions
                 Illegal   Purchase        Possess     Minors to
                                                          Use

Michigan           U                        U*            U*                          U*

Minnesota          U           U             U            U             U

Mississippi        U                                                    U

Missouri           U

Montana            U                         U            U

Nebraska           U                                      U

Nevada             U                                                                  U*

New Hampshire      U           U             U            U*

New Jersey         U

New Mexico         U           U

New York           U

North Carolina     U           U

North Dakota       U                                      U

Ohio               U

Oklahoma           U           U             U

Oregon             U                         U

Pennsylvania       U                                                                  U*

Rhode Island       U           U                          U*

South Carolina     U

South Dakota       U           U             U            U

Tennessee          U           U                                        U             U*

Texas              U           U             U            U             U              U

Utah               U           U             U                                         U

Vermont            U           U             U                          U

Virginia           U           U             U

Washington         U           U




                                   )))))))))))
                                       A - 2

                         Sale to      Illegal for    Illegal for    Illegal       Display       Advertising
                         Minors       Minors to      Minors to        for       Restrictions    Restrictions
                         Illegal      Purchase         Possess     Minors to
                                                                      Use

 West Virginia              U                            U             U                             U

 Wisconsin                  U             U              U

 Wyoming                    U             U              U             U

 TOTALS                     51            33             26           16             7               11

* All State self-reported information was cross-checked with CDC. Noted changes reflect CDC’s information
dated 3/31/98.




                                               )))))))))))
                                                   A - 3

